U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


    GOVERNMENT EMPLOYEES
      RETIREMENT SYSTEM,
GOVERNMENT OF THE VIRGIN ISLANDS

             REPORT NO. 99-I-261
                MARCH 1999
                                                                               V-IN-VIS-002-98


                  United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                        Washington, D.C. 20240

                                                                    MAR 26l999

    Ms. Corine King
    Chairperson, Board of Trustees
    Government Employees Retirement System
    No. 48C-5OC Kronprindsens Gade
    Charlotte Amalie, Virgin Islands 00802

    Subject: Audit Report on the Government Employees Retirement System, Government
             of the Virgin Islands (No. 99-I-261)

    Dear Ms. King:

    This report presents the results of our audit of the Government Employees Retirement
    System, Government of the Virgin Islands. The objective of the review was to determine
    whether (1) the Retirement System satisfactorily implemented recommendations contained
    in our September 199 1 report “Followup of Recommendations Concerning the Employees
    Retirement System, Government of the Virgin Islands” (No. 9 1 -I- 143 1); (2) the Government
    made timely deposits of employer and employee contributions into the Retirement System’s
    bank account in accordance with the consent judgment issued by the U.S. District Court; and
    (3) the Retirement System properly accounted for and collected interest receivable from the
    Government.

    We found that improvements were needed in the Retirement System’s (1) administration of
    loans to its members and (2) accounting for employer and employee contributions to the
    Retirement System. Specifically:

           _ For the 16 recommendations contained in the 1991 report, we found that
    4 recommendations had been partially implemented and 10 recommendations had not been
    implemented. We also considered 1 recommendation implemented and withdrew
    1 recommendation. Because all of the recommendations had not been implemented, the
    Retirement System did not have adequate control over loans to members, and there were
    1,054 delinquent loans, with outstanding balances totaling $5.3 million.
.            _ Erroneous amounts were deducted from employees’ salaries as contributions to
    the Retirement System, which resulted in the need to refund an average of about $104,000
    annually, and the Retirement System lost about $1 million in interest income because of the
    Government’s delays in submitting biweekly retirement contributions to the Retirement
    System. Additionally, the Retirement System’s bank account had not been reconciled since
    fiscal year 199.5. As a result, a difference of $15 million existed between the bank statement
    balance and the cash balance shown in the Retirement System’s internal records.
Based on the January 28, 1999, response (Appendix 3) to the draft report from your office,
we consider 10 ofthe 11 new recommendations (A.2, A.3, A.4, A.5, A.6, B.l, B.2, B.3, B.4,
and B.5) unresolved and request additional information for one recommendation (No. A. 1)
(see Appendix 4). Although the response provided detailed information on actions proposed
to implement the 16 unresolved recommendations from the 199 1 report, the response did not
address the new recommendations made in our current report as a result of our followup
audit.

The Inspector General Act, Public Law 94-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix l), actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not been
taken.

In view of the above, please provide a response to this report, as required by Public Law 97-
357, by April 30, 1999, to our Caribbean Office, Federal Building - Room 207, Charlotte
Amalie, Virgin Islands 00802. The response should provide the information requested in
Appendix 4.

We appreciate the assistance of the management and staff of the Government Employees
Retirement System in the conduct of our audit.

                                              Sincerely,


                                      -6
                                      Eljay B. Bowron
                                      Inspector General

cc: Governor of the Virgin Islands
                                                CONTENTS
                                                                                                                 Page

INTRGDUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .._........._.            1

    BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1
    OBJECTIVE AND SCOPE ..........................................                                                   2
    PRIORAUDITCOVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             2

FINDINGS            AND         RECOMMENDATIONS                          ................................ 4

    A.        LOANS TO MEMBERS ....................................... 4
    B.        RETIREMENT CONTRIBUTIONS .............................. 11

APPENDICES

    1.       CLASSIFICATION OF MONETARY AMOUNTS . . . . . . . , . . . . . . . 16
    2.       STATUS OF RECOMMENDATIONS AND CORRECTIVE
             ACTIONS FOR AUDIT REPORT “FOLLOWUP OF
             RECOMMENDATIONS CONCERNING THE GOVERNMENT
             EMPLOYEES’ RETIREMENT SYSTEM, GOVERNMENT OF
             THE VIRGIN ISLANDS” . . . . . . . . . . . . . . . . . . . . . , . . . . . . . . . . . . . . . . 17
    3.       GOVERNMENT EMPLOYEES’ RETIREMENT SYSTEM
             RESPONSE TO DRAFT REPORT . . q . . . . . . . _ . . . . . . . . . . . . . . . , . . . .23
    4.       STATUS OF AUDIT REPORT RECOMMENDATIONS . . . . . . . _ . _ . . .36
                                 INTRODUCTION
B.ACKGROUXD

The Government Employees Retirement System was established in October 1959 to
administer the employee pension plan of the Government of the Virgin Islands. The plan
offers retirement benefits in seven categories: regular service, hazardous duty,
senator/legislator. duty-connected disability, nonduty-connected disability, duty-connected
death. and survivor’s annuities. The Retirement System also provides its members with
automobile. land. home mortgage, and personal loans.

The Government and its independent instrumentalities are required by law to contribute an
amount equal to 14.5 percent of their employees’ salaries to the Retirement System. The
members of the Retirement System are required to contribute 8 percent of their salaries for
regular employ,ees: 9 percent for senators/legislators; and 10 percent for employees in certain
high risk jobs. such as police officers. as provided for in Act No. 5226. Contributions are
submitted to the Retirement System on a biweekly or monthly basis through lump-sum
checks that include employers’ and employees’ contribution payments.

The Retirement System is governed by a Board of Trustees that comprises seven members
(three each from St. Thomas and St. Croix and one from St. John), and the Retirement
System’s day-to-day operations are managed by an Administrator and four Assistant
,4dministrators. As ofseptember 30, 1997. the Retirement Systemmanaged investments and
real estate valued at more than $1 billion. The most recent actuarial study stated that as of
September 30. 1997. the Retirement System had an unfunded pension liability of
$296.6 million.

As a result of a lawsuit brought by the Retirement System against the Commissioner of
Finance and the Government of the Virgin Islands, the U.S. District Court in December
1983 issued a consent judgment that required the Department of Finance to pay all employer
and employee retirement contributions into the Employees Retirement System Fund within
30 days of the end of each biweekly pay period. The consent judgment was modified in
April 1994 to require (1) the establishment of an interest-bearing bank account in the name
of the Retirement System’s Board of Trustees and (2) the deposit into this account, by the
Department of Finance, of all employer and employee retirement contributions and other
payroll deductions made on behalf of the Retirement System within 21 days of the end of
each biweekly pay period. An April 1994 addendum to the consent judgment required the
Department of Finance and the Retirement System to determine, based on their respective
records, the amount of Retirement System cash being held by the Department of Finance as
of September 30, 1993, and to deposit 75 percent of the lower of such amounts into the
Retirement System’s interest-bearing bank account no later than August 15, 1994.
OBJECTIVE AND SCOPE

The objective of our audit was to determine whether (1) the Retirement System satisfactorily
implemented recommendations contained in our prior audit reports on the Retirement System
(see Prior Audit Coverage), (2) the Government made timely deposits of employer and
employee contributions into the Retirement System’s bank account in accordance with the
consentjudgment issued by the U. S. District Court, and (3) the Retirement System properly
accounted for and collected interest receivable from the Government based on the consent
judgment.

To accomplish the audit objective, we reviewed documents and records pertaining to the
Retirement System’s operations during fiscal years 1996, 1997, and 1998 (through June).
In addition, we interviewed Retirement System personnel regarding actions taken to
implement the prior audit recommendations and to collect and record employee and
employer contributions. The audit was conducted at the Retirement System offices on
St. Thomas and St. Croix.

Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances to accomplish the audit objective.

Based on the limited objective and scope of our audit, we evaluated internal controls only
to the extent that they related to corrective actions taken on the prior audit recommendations
and the amended consent judgment issued by the District Court of the Virgin Islands. The
internal control weaknesses identified in these areas are addressed in the Findings and
Recommendatiqns section of this report. Our recommendations, if implemented. should
improve the internal controls in these areas.

PRIOR AUDIT COVERAGE

During the past 5 years, the Office of Inspector General has not issued any audit reports on
the Government Employees Retirement System. However, in September 1985, the Office
of Inspector General issued the report “Employees Retirement System, Government of the
Virgin Islands” (No. V-TG-VIS-24-84), which stated that improvements were needed in the
controls over (1) reserve funding, (2) loan policies and administration, (3) interest income,
(4) the performance of professional investment managers, and (5) duty-connected disability
annuities. Specifically, the report stated that the Retirement System may not have
accumulated sufficient reserves to guarantee the payment of all promised retirement benefits,
loan procedures were not suffkient to prevent lost revenues and to protect the Retirement
System’s interests, annual revenues of more than $164,000 were not realized because of the
procedures used by the Retirement System to compute interest on personal loans, actions
taken by the Retirement System were not sufficient to timely correct poor performance
demonstrated by investment managers, and internal controls were not sufficient to detect and
minimize errors in computing duty-connected disability annuities.


                                              2
Additionally, in September 199 1 the Office of Inspector General issued the report “Followup
of Recommendations Concerning the Employees Retirement System, Government of the
Virgin Islands” (No. 9 1 -I- 143 l), which stated that 15 of the 24 recommendations contained
in the 1985 report had not been implemented. The report further stated that although some
improvements had been made in reserve funding, personal loan interest computations,
investment management, and disability annuity calculations, additional improvements were
needed with regard to loan administration. Specifically, the Retirement System did not have
current and accurate records on the status of loans, minimal collection efforts were made on
delinquent loans, and Retirement System personnel did not take sufficient action to ensure
that automobiles and real property purchased by members through loans from the Retirement
System were adequately insured. As a result of the followup audit, we made three new
recommendations. Additionally, based on the Governor’s response to the draft of the
followup audit report, we considered 2 of the 15 outstanding recommendations from the 1985
report resolved and implemented and the remaining 13 prior recommendations and the 3 new
recommendations unresolved. Our current audit disclosed that 4 of these 16 unresolved
recommendations had been partially implemented and that1 0 recommendations had not been
implemented. We also considered 1 recommendation implemented and withdrew
1 recommendation.
               FINDINGS AND RECOMMENDATIONS
A. LOANS TO MEMBERS

We found that the Retirement System did not fully implement 15 of the 16 unresolved
recommendations contained in our 1991 followup report (see Appendix 2) and therefore did
not adequately administer loans to members of the Retirement System. Specifically, the
Retirement System did not (1) initiate collection actions on delinquent loans, (2) have
accurate and reliable loan information on its computer system, (3) implement standardized
written policies and procedures for loan processing, and (4) ensure that all automobile and
mortgage loans had current insurance policies to protect the Retirement System’s interests.
The laws related to the operations of the Retirement System are contained in Title 3,
Chapter 27, of the Virgin Islands Code. The deficiencies existed because the Retirement
System’s computer system was outdated (a new system was being installed as of July 1998)
and a key position within the Retirement System’s loan administration section had been
vacant since 1995. As a result, as many as 1,054 loans, with outstanding balances of about
$5.3 million, were delinquent as of February 1998; the computerized loan files contained
duplicate accounts, incorrect social security numbers, and incorrect or outdated loan status
information; automobile loans were not approved and mortgage loans were not closed timely;
and 32 of 35 automobile and home mortgage loans reviewed did not have required insurance
policies.

Collection Enforcement

Of the 16 recommendations contained in the 1991 followup report (13 recommendations
carried forward from the 1985 report and 3 new recommendations), we found that 4
recommendations were partially implemented and 10 recommendations were not
implemented. We also considered 1 recommendation implemented and withdrew
1 recommendation. (A summary of the status of each recommendation is in Appendix 2.)
Specifically, the Retirement System took actions to (1) establish escrow accounts for
mortgage holders; (2) establish a Mortgage Loan Fund, as required by Title 33,
Section 3026, of the Virgin Islands Code; (3) ensure that annuity computations were verified
for accuracy; and (4) ensure that the Government’s independent agencies submitted
retirement contribution information in a timely manner and in a format usable by the
Retirement System. However, the Retirement System did not have adequate controls over
loans to members of the Retirement System.

The Retirement System provides, to eligible members, automobile, land, home mortgage,
and personal loans. According to Title 3, Chapter 27, of the Virgin IsIands Code, members
contributing to the Retirement System for at least 2 years can obtain personal loans for
$20,000 or 75 percent of their contributions paid into the Retirement System, whichever is
less. Members contributing to the Retirement System for at least 5 years can also obtain
automobile loans of up to $18,000, land purchase loans of up to $30,000, and home mortgage
loans of up to $105,000. According to Retirement System records, as of February 1998, the


                                             4
Retirement System had 13,445 outstanding loans, totaling $6 1.9 million. Of that amount,
1,054 loans, totaling $5.3 million, were recorded as delinquent, as shown in Table 1:


              Table 1. Retirement System Loans Recorded as Delinquent

              TvDe of Loan                 No. of Loans       Outstanding Balance
        Home Mortgage                           184                 $2,964,088
        Personal                                816                  2,127,609
        Automobile                               47                     157,592
        Land Purchase                         7                          67.643
               Total                          1,054                 $5.3 16.932


We reviewed a sample of 80 loans, totaling $907,729, that were identified in the Retirement
System’s records as delinquent. We found that only 44 of the 80 loans were delinquent. The
remaining 36 loans consisted of 15 loans to retired members who continued to make loan
payments after retirement, 8 loans to active members who either were current in their loan
payments or had paid off their loans, 5 loans that were paid off from the members’ retirement
contributions, 3 loans that were paid off upon the death of the members, 1 loan that was not
recorded in the name of the correct member, 1 loan for which Retirement System officials
could not determine the borrower, and 3 loans for which the loan files could not be located.
Based on our review, we determined that the Retirement System had initiated collection
actions on only 10 of the 44 loans which were verified as delinquent and that the period of
delinquency of the 44 loans ranged from 128 to 5,146 days (4 months to 14 years). For
example:

       - A mortgage loan with an outstanding balance of $32,955 had been delinquent
since September 24, 1987, or a total of 3,843 days (10.5 years).

       - An automobile loan with an outstanding balance of $4,240 had been delinquent
since April 5, 1990, or a total of 3,039 days (8.3 years).

      - A personal loan with an outstanding balance of $2,035 had been delinquent since
March 1, 1984, or a total of 5,146 days (14.1 years).

We also found that the Retirement System had not deducted loan payments from the
annuities of at least two members who had retired or from the refund of retirement
contributions of one member who had resigned from government service.

We believe that the Retirement System should establish a collection enforcement program
that includes procedures which ensure that (1) automatic deductions for required loan
payments are made from all active and retired members who have outstanding loans; (2)
delinqpent loan amounts are deducted from the retirement contribution refunds due members
who leave government service; (3) foreclosure is initiated on the automobiles, land, or homes
of members who have defaulted on their loans and who have not made reasonable efforts to

                                              5
pay the delinquent amounts; and (4) all delinquent loans are reported to the major credit
bureaus. The Retirement System should also obtain periodic updates from the Motor Vehicle
Bureau of the Virgin Islands Police Department on the ownership status of automobiles
purchased with loans that are delinquent to improve the chances of repossessing the vehicles
of individuals.

Computer Files

As stated in the section “Collection Enforcement,” we found that the computerized loan tiles
maintained by the Retirement System were not reliable. In 1987, the Retirement System
began using a new computer for its loan operations. During the conversion to the new
computer, loan account information was not verified, and incorrect data, such as loan
balances and interest rates, were transferred to the new computer. As a result, Retirement
System personnel had to manually recalculate interest and loan amounts to provide accurate
loan balances in response to inquiries or for collection enforcement action. We also found
that the computer system contained (1) duplicate names (accounts); (2) incorrect social
security numbers; (3) loan balances that reverted to the old, incorrect balance after having
been recalculated and corrected; (4) loans that had been paid off; (5) loans that were recorded
in the incorrect members’ names; and (6) retirement contribution payments that were
recorded to the incorrect accounts.

In July 1998, the Retirement System began to convert its loan account files to off-the-shelf,
personal computer-based software. Retirement System officials said that when this
conversion is fully implemented, the software is expected to handle all of the Retirement
System’s loan operations, including loan processing and reporting. The officials further
stated that the software will be able to produce specialized reports, immediately provide loan
payoff amounts, and identify delinquent and uninsured accounts. However, these officials
were uncertain as to whether the new software would be able to interface and share
information with the Retirement System’s main financial accounting software. As such,
some manual intervention may be necessary to transfer consolidated loan balance
information fkom the new loan management software to the financial accounting software.

To ensure the accuracy of loan account information on the new loan management system, we
believe that the Retirement System should ensure that all loan account data, including
identifying information, payment methods, interest rates, and outstanding loan balances, are
verified prior to entry into the new system. At the November 24,1998, exit conference on
the preliminary draft of this report, Retirement System officials stated that they were
carefully reviewing the accuracy of loan information as part of the conversion process and
that they had drafted several proposed changes to strengthen the Retirement System’s
internal operating’ procedures with regard to loan administration.

Loan Processing Procedures

The Retirement System did not establish formal standardized procedures for processing
loans. Although the maximum loan amounts, interest rates, and service eligibility
requirements are prescribed in Title 3, Chapter 27, ofthe Virgin Islands Code, the Retirement     .

                                              6
System did not have detailed guidelines for issues such as income requirements, outstanding
debt limitations, loan processing time frames, and collection procedures. For example,
although Retirement System officials said that they had a verbal policy of approving
automobile loans if the applicant had residual monthly income of at least $250 per month,
this policy was not documented.

We also found that although the Retirement System’s office on St. Croix maintained detailed
logbooks of the automobile and mortgage loan applications, including the date received and
the date approved or closed, such logbooks or other similar processing records were not
maintained at the St. Thomas office. Based on our review of the St. Croix logbooks, we
found that the automobile loan approval process took from 6 to 24 days (average of 13 days)
and that the mortgage loan approval process took from 5 to 14 months (average of 8 months)
through the closing date. At the November 24, 1998, exit conference, Retirement System
officials stated that sometimes title problems outside the control of the Retirement System
delayed the closing of mortgage loans.

In addition, we determined that an individual who was not a member of the Retirement
System had an outstanding mortgage loan. The applicant, who was a member of the
Retirement System at the time of the application, and his spouse were co-borrowers on the
loan. The couple were later divorced, and the loan was transferred to the spouse, who was
not a Retirement System member. Retirement System officials told us that they had
questioned the propriety of this loan but that the loan had been approved by the Board of
Trustees. The loan has been delinquent for more than 2 years. We believe that formal
guidelines for loan administration would have precluded approval of a loan for an individual
who was not a member of the Retirement System.

Insurance Coverage

The Retirement System did not ensure that recipients of automobile and mortgage loans
financed by the Retirement System maintained automobile and property damage insurance
coverage, as required by Title 3, Section 717, of the Virgin Islands Code, to protect the
Retirement System’s interests. Of 35 loans included in our review that required automobile
or property damage insurance, only 3 loans had insurance coverage. We found that this
deficiency existed in part because the Retirement System did not have an employee who
monitored the status of insurance coverage. Retirement System officials told us that a
vacancy announcement to fill the position of Insurance Monitor was not successful because
the position’s salary was too low to attract qualified candidates, but they stated that filling
this position was critical to improving the Retirement System’s administration of loans.

At the November 24,1998, exit conference, Retirement System officials stated that they were
planning to implement a “force placed” insurance program (that is, the Retirement System
would obtain insurance for the borrower) for mortgage and automobile loans and that the
proposed insurance carrier would have the ability, through its computerized insurance
database, to identify borrowers whose insurance policies had lapsed. Retirement System
officials also stated that they were reviewing proposals for providing disability and income
protection insurance coverage for borrowers.

                                              7
Recommendations

We recommend that the Board of Trustees of the Government Employees Retirement System
direct the Administrator to:

         1. Reconsider the recommendations in the September 1991 report which have not
been fully implemented (see Appendix 2) and develop a plan of action which identifies the
corrective actions to be taken and includes target dates and titles of officials responsible for
implementation of these recommendations.

        2. Establish a collection enforcement program which includes procedures to ensure
that automatic deductions for required loan payments are made from the salaries of all active
and retired members who have outstanding loans; delinquent loan amounts are deducted
from the refunded retirement contributions due members who leave government service;
foreclosure is initiated on the automobiles, land, or homes of members who have defaulted
on their loans and who have not made reasonable efforts to repay the delinquent amounts:
and all delinquent loans are reported to the major credit bureaus.

        3. Obtain periodic updates from the Motor Vehicle Bureau, Virgin Islands Police
Department, on the ownership status of automobiles purchased with loans that are delinquent
to determine whether the vehicles are registered in the names of the individuals who have the
delinquent loans.

        4. Establish and implement a plan of action to ensure that all loan data are verified,
corrected, and updated as part of the conversion to the new personal computer-based loan
management system.

        5. Develop and implement formal written guidelines for all loan application,
processing, administration, and collection functions of the Retirement System’s Loan
Section.

        6. Expedite the hiring of an Insurance Monitor so that mandatory insurance coverage
for automobile and mortgage loans financed by the Retirement System is enforced.

Government Employees Retirement System Board of Trustees Response
and Office of Inspector General Reply

In the January 28,1999, response (Appendix 3) to the draft report from the Chairperson of
the Government Employees Retirement System’s Board of Trustees, the Board addressed
the recommendations from our September 1991 followup report on the Retirement System
(the status of which is summarized in Appendix 2 of this report). However, theBoard did not
address the new recommendations made as a result of our current audit. Therefore, we
consider Recommendations A.2 to A.6 unresolved and request additional information for
Recommendation A. 1 (see Appendix 4).
General Comments on Prior Audit Recommendations

The Retirement S! stem’s January 28, 1999. response provided information on concurrence
or nonconcurrence Lvith the prior audit recommendations (see Appendix 2) and proposed
actions to implement those recommendations with which the Retirement System concurred.
In summary, the response indicated concurrence with the September 1991 report’s
Recommendations 1.3, 1.5. 2.1. 2.3, 2.4, 2. 7, 2.8, 5.3, B.l, B.2, and B.3 and provided
information on proposed corrective actions. However, the response did not provide target
dates or titles of the officials responsible for implementing the proposed actions. In addition,
the Board nonconcurred with Recommendations 2.2,2.9,2.11, and 4.3, as discussed in the
paragraphs that follow.

Prior Recommendation 2.2. Nonconcurrence.

        Board of Trustees Response. The Board stated that the Retirement System did not
agree that a “credit history is necessary” for personal loans to Retirement System members,
“since the loans are fully collateralized by the contributions.”

        Office of Inspector General Reply.           While we agree that personal loans to
Retirement System members are collateralized by the members’ retirement contributions, we
believe that because of the large number of delinquent personal loans (8 16 delinquent loans,
with outstanding balances totaling $2.1 million, according to Retirement System records as
of February 1998), the Retirement System should take additional precautions to ensure that
there will be a high probability that members will pay off new personal loans. In our
opinion. a review of the credit histories of loan applicants is an additional step the Retirement
System can take as part of its loan approval process to ensure that loans are not given to
individuals who have a history of delinquent loans and other debts.

Prior Recommendations 2.9 and 2.11. Nonconcurrence.

       Board of Trustees Response. Regarding Recommendation 2.9, the Board stated that
the Retirement System “lacks any authority or jurisdiction to compel the Office of
Management and Budget or the Commissioner of Finance to source the [Mortgage Loan
Fund] in accordance with the statutory mandate.” Regarding Recommendation 2.11, the
Board stated that “it is our position that this recommendation be withdrawn because it [the
recommendation] falls beyond any reasonable scope of authority wherein [the Retirement
System] can be expected to exercise corrective action.”

        Office of Inspector General Reply. We agree that the Retirement System does not
have the authority to compel the Executive or Legislative Branches ofthe Government ofthe
Virgin Islands to provide funding for activation of the Mortgage Loan Fund. To that extent,
we will refer these recommendations to the Governor and the Legislatie of the Virgin
Islands. However, because it would be in the best interest of the Retirement System to have
the Mortgage Loan Fund activated as a resource to compensate the System for defaulted
loans to members, we also believe that the Retirement System could submit to the newly


                                               9
elected Governor and Legislature documentation presenting its support for activation of the
Mortgage Loan Fund.

Prior Recommendation 4.3. Nonconcurrence.

       Retirement System Response. The Board stated that “corrective action on this
recommendation. was implemented as far back as July 1, 1994, when the [Retirement
System] contracted with [a bank] to perform Global Custodial Services. That contract bound
[the bank] as custodian, to perform a number of custodial services which required [the bank]
to reconcile transactions, examine transactions for unauthorized trades, notify the investment
managers of all unauthorized trades and initiate appropriate actions to cancel unauthorized
trades as soon as they are discovered.” The Board also stated that the Retirement System “is
in the transition of changing its Global Custodian . . . [to] an institution whose primary
services are custodial trust services for private and public trust institutions” and that the
proposed custodian “has the ability to deliver a vast range of reports within 24 hours of
month end closings, and they have the ability to have audited reports available which can be
accessed on-line, within three days of the monthly closing.”

        Office of Inspector General Reply. At the time of the audit, detailed information
was not provided to our auditors on the level of custodial services provided by the
Retirement System’s current custodian. Further, as we stated in Appendix 2, Retirement
System officials told us at the exit conference on the draft of this report that they were
evaluating proposals for new investment brokers and that the candidate firm would have the
capability to implement the prior audit recommendations. Based on the response, we
consider prior Recommendation 4.3 resolved and implemented and have revised Appendix
2 accordingly.




                                             10
B. RETIREMENT CONTRIBUTIONS

We found that the Retirement System did not effectively manage and monitor employer and
employee contributions, which are the primary investment capital used to fund the
Retirement System’s activities and benefits. Specifically, (1) incorrect retirement
contribution amounts were deducted from members’ salaries, (2) employer and employee
contributions were not submitted to the Retirement System within the court-ordered time
frames, and (3) bank reconciliations were not performed for the Retirement System’s bank
account. The laws related to the Retirement System’s operations are contained in the Title 3,
Chapter 27, of the Virgin Islands Code. In addition, a consent judgment issued by the U.S.
District Court requires that employer and employee contributions be received by the
Retirement System within 2 1 days of the end of each applicable pay period. The deficiencies
occurred because the Retirement System, the Department of Finance, and the Division of
Personnel did not adequately coordinate with each other (as appropriate) to develop and
implement procedures to ensure that changes to employees’ retirement deduction rates were
processed correctly, retirement contribution payments and applicable interest were submitted
to the Retirement System within required time frames, and bank reconciliations were
performed on a monthly basis. In addition, the Retirement System did not establish
procedures to ensure that members’ retirement deductions were accurately computed and that
members were provided with annual statements of their retirement accounts. A’s a result, the
Retirement System (1) had to issue retirement contribution refunds of $104,000 to members
during fiscal years 1996 to 1998; (2) lost investment income of at least $1 million during
fiscal years 1996,1997, and 1998; and (3) had a $15 million difference between its internal
records and the bank statement balance.

Retirement Deductions

According to the Government Employee Retirement System Handbook, a new Government
employee becomes a member of the Retirement System after 1 month of employment and
immediately starts contributing to the Retirement System. The retirement contribution is
computed as a percentage of the employee’s salary based on job classification and is
deducted in biweekly increments. Regular employees contribute at a rate of 8 percent,
legislators contribute at a rate of 9 percent, and etiployees in hazardous duty jobs contribute
at a rate of 10 percent.

Based on our review of a sample of 41 retirement contribution refunds, totaling $218,138,
issued to 30 employees, we found that 12 refunds, totaling $2,969, were inappropriate
because incorrect percentage rates were used to compute employees’ retirement deductions.
For example:

        - A police detective had 16 percent of his salary deducted (twice the 8 percent regular
employee rate) for the period of September 1994 through November 1995, although the
deductions should have been at the 10 percent hazardous duty rate. In September 1996, the
employee was refunded $1,226, which was the total amount erroneously deducted.



                                              11
        - A corrections officer had deductions at both the 8 percent regular employee rate and
the 10 percent hazardous duty rate for four pay periods in April and May 1997, even though
the deductions should have been at the 10 percent rate. In September 1997, the employee
was refunded $259, which was the amount erroneously deducted. We found that duplicate
deductions had also been reported by the employee in June and July 1996.

        - A police radio dispatcher, who was not considered by job position to be a law
enforcement officer, had deductions at both the 8 percent regular employee rate and the
10 percent hazardous duty rate for three pay periods in March 1996, although the deductions
should have been made at the 8 percent regular employee rate. Although the employee’s
retirement files did not contain documentation that a refund was issued, we estimated that
the employee was due a refund of $194. The tiles showed that duplicate deductions had also
been reported by the employee in February and July 1996 and in April 1997.

Because of incorrect deduction rates, the Retirement System had to pay refunds to members
of the Retirement System totaling $104,000 in fiscal years 1996, 1997, and 1998. Also, in
those cases where deductions were made at both the 8 percent and the 10 percent rates, only
one deduction amount (usually the 8 percent regular employee deduction) was posted to the
employees’ Retirement System accounts. Therefore, the potential existed for an employee
who applied for retirement from a hazardous duty position to be denied retirement benefits
at the hazardous duty level unless the employee either had documents to substantiate that
excess retirement contributions had been deducted or had paid to the Retirement System an
additional retirement contribution amount representing the 2 percent difference between the
8 percent regular duty contribution shown in the Retirement System records and the 10
percent hazardous duty contribution amount that should have been recorded.

We found that incorrect deduction amounts usually resulted when an employee transferred
between different job categories (such as from regular duty to hazardous duty) and the prior
deduction was not stopped before the new deduction was started. Further, although the
Department of Finance provided the Retirement System with biweekly summaries of
retirement deductions, these summaries were not reviewed by Retirement System personnel
to identify any errors. Consequently, the errors may not have been corrected if the employees
had not informed Retirement System offkials of the incorrect deductions.

Retirement System officials told us that the incorrect deductions were caused by a
programming or procedural problem at the Department of Finance which resulted in Notices
of Personnel Action for changes in the employees’ retirement deduction rates not being
captured in the Department of Finance’s computer. However, Department of Finance
officials said that the problem was procedural because Retirement System and/or Division
of Personnel employees did not deactivate the previous deduction rate. We believe that
representatives of the Retirement System, the Department of Finance, and the Division of
Personnel shouldjointly develop procedures to eliminate the incorrect retirement deductions.




                                             12
Retirement Contribution Payments

R=:irz-nenr contributions :i)r cTro\ emmrnt employees are submitted to the Retirement System
b> -2 D<partm<nt r;t‘I:;!‘~nc 2 rhrough lump-sum checks for each biweekly pay period. Each
check includes &dCctl(>.qs made from employees’ salaries and the Government’s
l-I.5 ixrcent contribu:!on. The 199-I consent judgment issued by the U.S. District Court
reqclires jllcll ~o!l~r!J=utlons to be recei\,ed by the Retirement System within 21 days of the
end oi the pay period for ?L hich the contributions are applicable. However, we found that the
Go\ ernment did not al\t~~~,-s comply \\.\iith this requirement. Specifically, for fiscal year 1996,
none of the 15 bi\ceekl>- checks (excluding 1 check that was lost in transit and had to be
reissued) were issued to the Retirement System within the 21-day time frame specified by
the Court. The processing times ranged from 4 to 155 days late, with an average of 70 days
late. Similarly. during fiscal year 1997, none of the 26 biweekly checks were issued within
the 2 1 -day time frame. The processing times ranged from 5 to 5 1 days late, with an average
of’<
   -- davs, late. Ho\vel.er, we noted a significant improvement for fiscal year 1998, in which
only J. of the 26 checks were issued late, with a range of 5 to 11 days, or an average of 7 days
late. Department of Finance officials attributed the late contribution payments to cash flow
problems that prevented timely payment to the Retirement System.

We estimated. based on a c0nsen.atia.e 6.9 percent rate of return (as proposed by Retirement
System officials). that the late contribution payments resulted in lost interest income to the
Retirement System of at least $7X.,_ S79 in fiscal year 1996, $272,2 14 in fiscal year 1997, and
$5.317 in fiscal year 1998. for a total of $1 million over the 3 years. Although Retirement
System officials provided us with copies of numerous letters sent to the Department of
Finance during the period of September 1995 to July 1997 urging the Department to submit
retirement contribution payments in a timely manner, the Retirement System and the
Department of Finance had not jointly adopted comprehensive procedures to ensure that
contribution payments Lvere submitted within the 21-day time frame established by the
District Court. W-e believe that Retirement System and Department of Finance officials
should consult with the District Court to establish formal policies and procedures, including
applicable interest rates for late payments, to ensure compliance with the 21-day payment
time frame.

Bank Reconciliations

Title 3. Section 7 16, of the Virgin Islands Code designates the Commissioner of Finance as
ths rreasurer of the Retirement System. However, despite documented attempts by
Retirement System officials and their independent auditors, the Retirement System had not
been able to obtain from the Department of Finance an up-to-date, reconciled cash balance
for the Retirement System’s bank account. Also, Retirement System personnel had not been
able to perform their otvn reconciliations between the Retirement System’s internal records
and the bank statements.

The most recent bank reconciliations were performed by the Department of Finance for fiscal
years 1994 and 1995. F or fiscal year 1994, the Department had to adjust its book balance
upnard by $25.4 million to match the $32.6 million bank balance, and for fiscal year 1995,

                                                13
the Department had to adjust its book balance downward by $44.7 million to match the
negative $28.5 million bank balance. The adjustments to the book balances resulted from
debit and credit memoranda issued by the bank, interest income that had not been recorded
in the financial records, and data entry errors by the Department of Finance that resulted in
underposted and unrecorded deposits and overposted checks.

For fiscal year 1,996, the Retirement System began to maintain an internal cash flow
statement (called an “inflow/outflow statement” by the Retirement System). However, the
Retirement System had not reconciled these cash flow statements to the monthly bank
statements. Specifically, we found that for fiscal year 1996, there was an unreconciled
difference of $14.5 million, for fiscal year 1997 there was an unreconciled difference of
$14.9 million, and for fiscal year 1998 (as of March 1998) there was an unreconciled
difference of $15 million. Retirement System officials said that the bank account could not
be reconciled because the Department of Finance could not confirm a cash balance for the
account and canceled checks were not available to the Retirement System because they were
sent to the Department of Finance by the bank. Department of Finance officials
acknowledged that differences existed between the book and the bank balances for the
Retirement System’s account and that Department and Retirement System personnel had
tried unsuccessfully to reconcile the account.

At the November 24, 1998, exit conference, Retirement System officials suggested that the
System’s bank account be transferred from the Department of Finance to the Retirement
System. We concur with this suggestion because it would give the Retirement System direct
control of its bank account and allow Retirement System personnel to concentrate their
efforts on reconciling their own bank account. At the time of our audit, the Department of
Finance was responsible for managing and reconciling all of the main bank accounts of the
Government ofthe Virgin Islands. Therefore, Finance personnel could not concentrate their
efforts on reconciling the Retirement System account. The suggested change of
custodianship would also allow the Retirement System to make transfers between the bank
account and various investment accounts without the delays inherent in having to request that
such transfers be processed by the Department of Finance.

Prior Service Payments

During the audit, we noted that nine members of the Retirement System who had applied for
retirement benefits were required to make lump-sum payments of retirement contributions
totaling $23,698 for prior service before becoming eligible to receive retirement annuities.
In one instance, the member had to pay $15,5 14 in prior service contributions. Title 3,
Section 704(i), of the Virgin Islands Code allows members of the Retirement System to make
payment of retirement contributions for prior creditable service, with the provision that such
payments should be made over a period not to exceed 5 years prior to retirement. In the nine
cases identified during our review, it appeared that the members were not aware that they had
not made full retirement contributions. We found that the Retirement System did not send
periodic (at least annuaI) retirement account statements to members so that they could review
the status of their retirement accounts and contact the Retirement System to make any
adjustments, corrections, or additional contribution payments which were necessary.

                                              14
Recommendations

We recommend that the Board of Trustees of the Government Employees Retirement System
direct the Administrator to:

        1. Coordinate with officials of the Department of Finance and the Division of
Personnel to develop and implement procedures to ensure that changes and updates to
employees’ retirement deduction rates are properly made in the Government’s payroll
system.

        2. Review the files pertaining to all active members of the Retirement System to
identify any employees who have incorrect retirement deductions and take actions to correct
the deduction rates.

        3. Coordinate with officials of the Department of Finance and the U.S. District
Court to develop procedures to ensure that retirement contribution payments are submitted
to the Retirement System within the time frames required by the U.S. District Court consent
judgment. The procedures should include a provision for the Government to compensate the
Retirement System for interest income lost by late submission of contribution payments at
an interest rate approved by the District Court.

        4. Propose legislation to transfer custodianship of the Retirement System’s bank
account to the Retirement System and coordinate with officials of the Department of Finance
and the bank to reconcile the bank account and to develop and implement procedures to
ensure that future reconciliations are performed on a monthly basis.

        5. Implement procedures to provide members of the Retirement System with
periodic (at least annual) statements of their retirement accounts.

Government Employees Retirement System Board of Trustees Response
and Office of Inspector General Reply

In the January 28,1999, response to the draft report from the Chairperson of the Government
Employees Retirement System’s Board of Trustees, the Board addressed the
recommendations contained in our September 1991 audit report, the status of which is
summarized in Appendix 2 of this report. However, the Board did not address the
recommendations made as a result of our current audit. Therefore, we consider
Recommendations B.l, B.2, B.3, B.4, and B.5 unresolved (see Appendix 4).




                                            15
                                                 APPENDIX 1


             CLASSIFICATION OF MONETARY AMOUNTS

                                            Unrealized
                       Finding Area         Revenues*

       A. Loans to Members
             Collection Enforcement        $5.3 million

       B. Retirement Contributions
            Contribution Payments          $1 .O million

               Total                       $6.3 million




*Amounts represent local funds.



                                      16
                                                                             APPENDIX 2
                                                                               Page 1 of 6
             STATUS OF RECOMMENDATIONS
               AND CORRECTIVE ACTIONS
                  FOR AUDIT REPORT
      “FOLLOWUP OF RECOMMENDATIONS CONCERNING
    THE GOVERNMENT EMPLOYEES’ RETIREMENT SYSTEM,
          GOVERNMENT OF THE VIRGIN ISLANDS”
                     (No. 91-I-1431)

           Recommendations                             Status of Corrective Actions

    Prior Audit Recommendations

1.3. Submit a bill to the Legislature            Not implemented. Retirement System
which makes it unlawful to (1) increase          officials stated that the recommended
benefits without making compensations            legislation had not been submitted to the
to cover the present and future costs of         Legislature. The Retirement System’s
such benefits and (2) reduce                     unfunded pension liability was
contributions without eliminating                $388 million as of fiscal year 1996 (the
benefits which would no longer be                latest actuarial report available). At the
financed.                                        exit conference, Retirement System
                                                 offkials stated that they will propose
                                                 legislation to require that a financial
                                                 assessment be performed before future
                                                 changes are made to the benefit and
                                                 contribution levels of the Retirement
                                                 System.
1.5. Consider the establishment of a
temporary moratorium on the issuance of          Not implemented. The Retirement
new personal loans until (1) a complete          System has not brought loan records up
evaluation is made of the status of              to date. We found that the loan records
existing personal loans, (2) loan records        contained duplicate names (accounts),
are brought up to date, (3) collection           inaccurate account balances, and other
actions are begun for delinquent loans,          errors. In addition, there were no
and (4) loan administration procedures           formal procedures for enforcing the
are implemented to ensure proper                 collection of delinquent loans.
management of the personal loan                  According to Retirement System
program.                                         records, there were 1,054 delinquent
                                                 loans, with outstanding balances totaling
                                                 about $5.3 million. At the exit
                                                 conference, Retirement System officials
                                                 stated that they believed loan
                                                 administration could be improved
                                                 without implementing a moratorium on
                                                 new loans. They also noted that prior
                                                 attempts to place a moratorium on new
                                                 loans were disapproved by the
                                                 Legislature. In our opinion, regardless


                                            17
                                                                               APPENDIX 2
                                                                                 Page 2 of 6

            Recommendations                               Status of Corrective Actions

                                                   of whether a moratorium on new loans is
                                                   implemented, the recommended actions
                                                   to improve controls over existing
                                                   outstanding loans should be
                                                   implemented.

2.1, Immediately initiate collection               Not implemented., We found three
efforts on all automobile and mortgage             mortgage loans that had been delinquent
loans currently delinquent over 6                  since 1987 and one auto loan that had
months. Specifically, (1) determine                been delinquent since 1988 but for
whether a delinquent borrower is                   which no collection action had been
receiving retirement annuities and, in             taken by the Retirement System. In
such instances, initiate collection efforts        addition, we identified a retired member
through semimonthly annuity deduction              who had a mortgage loan that was 6 l/2
and notify the borrower of the action and          years delinquent but did not have loan
(2) for all other borrowers, issue a new           payment amounts deducted from his
letter informing each borrower that                retirement annuity.
repossession or foreclosure actions will
be taken if settlement is not immediately
made. For nonresponsive borrowers,
forward the account to the System’s
attorney and follow up on each account
to ensure that timely legal actions were
taken by the attorney.

2.2. In conjunction with                           Not implemented. Retirement System
Recommendation 1 S, reduce the risk                officials stated that personal loans are
associated with personal loans by (1)              approved provided the member has at
basing each approval on the applicant’s            least 2 years of credited service. The
prior credit history, continuity of                officials also said that they believed that
employment, intent, and ability to meet            a member’s signature on the loan
financial obligations and (2) requiring a          application was sufficient to support
valid need to be stated and evidence               that the funds will be used for the stated
submitted to verify that funds were used           purpose. Retirement System officials
for their approved purpose. If funds are           also stated that the Retirement System’s
not used for their stated purpose,                 interests were protected because personal
disapprove all future loans to the                 loans were secured by the member’s
member.                                            retirement contributions and that prior
                                                   attempts to require applicants to state the
                                                   purpose of personal loans were
                                                   disapproved by the Legislature.
                                                   However, we believe that, at a minimum,
                                                   the Retirement System should consider
                                                   an applicant’s prior credit history and




                                              18
                                                                                APPENDIX 2
                                                                                  Page 3 of 6

            Recommendations                               Status of Corrective Actions

                                                   ability to repay the loan as part of the
                                                   personal loan approval process.

2.3. Minimize delinquent accounts by               Not implemented. The Retirement
implementing procedures to immediately             System did not have formal procedures
initiate collection efforts when                   for handling delinquent loans, including
automobile and mortgage loans become               the referral of delinquent mortgage and
delinquent. When borrowers are                     automobile loans to the Retirement
nonresponsive to inquiries, ensure that            System’s attorney. Further, no one was
accounts are forwarded to the System’s             specifically assigned to enforce the
attorney and repossession and                      collection of delinquent automobile
foreclosure efforts are timely performed.          loans, and the employee assigned to
                                                   enforce the collection of mortgage loans
                                                   was also responsible for processing loan
                                                   applications.

2.4. Monitor the accumulation of                   Not implemented. The Retirement
interest and penalties on personal loans,          System did not monitor the accumulation
and immediately initiate collection                of interest on the personal loans. As a
efforts when accumulated amounts                   result, we found four personal loans for
exceed a member’s contribution.                    which the interest, totaling $65 15,
                                                   exceeded the members’ contributions.
                                                   In addition, the Retirement System did
                                                   not charge penalties to members who
                                                   had delinquent loans.

2.7. Establish an escrow account for               Partially implemented. The Retirement
each mortgage holder so that funds are             System established escrow accounts for
accumulated toward the payment of                  mortgage holders whose loans were
insurance premiums and property taxes.             approved since 1990. However, there
                                                   are no escrow accounts for mortgage
                                                   loans issued prior to 1990. As a result,
                                                   only 2 of 19 mortgage loans reviewed
                                                   had insurance policies.

2.8. Satisfy the legal requirement for             Not implemented. Retirement System
insurance against a mortgage holder’s              officials stated that the life insurance
death or disability by (1) amending the            policies have not been amended to
current life insurance policy to include           include insurance against the total
insurance against the total disability of a        disability of mortgage holders.
mortgage holder, (2) ensuring insurance            Additionally, the Retirement System still
premiums for the policy are paid within            pays for the cost of life insurance. The
the established grace period, and (3)              officials stated that because the 10
passing the cost of insurance to mortgage          percent interest rate charged by the




                                              19
                                                                                APPENDIX 2
                                                                                  Page 4 of 6

            Recommendations                               Status of Corrective Actions

holders by adding a charge to biweekly             Retirement System is higher than the
payroll deductions.                                rates for commercial mortgages, the
                                                   higher interest rate is justified by paying
                                                   the cost of life insurance. Based on this
                                                   explanation, we withdrew the portion of
                                                   the prior recommendation relating to
                                                   adding a charge to biweekly payroll
                                                   deductions.

2.9. Seek reimbursement from the                   Not implemented. Retirement System
Mortgage Loan Fund for all losses                  officials stated that since the Mortgage
resulting from mortgage loans.                     Loan Fund has never been funded, they
                                                   have not been able to seek
                                                   reimbursement from the Fund.

2.11. Submit a bill to the Legislature             Partially implemented. The Legislature
which appropriates sufficient funds to             established the Mortgage Loan Fund in
finance and establish the Mortgage Loan            Title 33, Section 3026, of the Virgin
Fund as outlined in Title 33 of the Virgin         Islands Code. However, the ‘Fund is
Islands Code. Replenish the fund                   inactive because it has not received any
through annual appropriations.                     appropriations.

4.3. For each quarterly statement                  Implemented. The Retirement System’s
received from the custodian, reconcile             response to the draft report stated that,
trade transactions to broker confirmation          since July 1994, the System’s custodian
receipts. Investigate and correct all              has reconciled trade transactions,
variances prior to 180 days elapsing after         examined transactions for unauthorized
receipt of each statement. During the              trades, and taken action to cancel
reconciliation, examine transactions for           unauthorized trades as soon as they are
trades not authorized by the Virgin                discovered. The response also stated
Islands Code. Notify appropriate                   that the Retirement System was in the
investment managers of all unauthorized            process of changing to a new custodian
trades, and initiate administrative actions        firm, which has the ability to provide
if unauthorized trades continue.                   enhanced services to the Retirement
                                                   System.

4.4. Pursue a conservative investment              Withdrawn. Retirement System officials
strategy so that risk is minimized in              stated that the Legislature raised the
conjunction with maximum returns.                  limitation on stock investments from 40
Specifically, reevaluate investment                percent to 50 percent rather than reduce
guidelines given to managers for                   the limitation, as had been
possible reduction of the 40 percent               recommended.
limitation established for stock
investments. Any reduction should be               Additionally, at the exit conference,
moved into fixed income investments.               Retirement System officials stated that
                                                   the Retirement System’s investment


                                              20
                                                                             APPENDIX 2
                                                                               Page 5 of 6

           Recommendations                              Status of Corrective Actions

                                                  portfolio was consistent with that of
                                                  other retirement systems of similar size
                                                  and was diverse enough to protect the
                                                  Retirement System’s interests. Based on
                                                  information provided to us on the
                                                  breakdown of the Retirement System’s
                                                  investment portfolio, we have withdrawn
                                                  the recommendation.

5.3. Perform a 100 percent review of all          Partially implemented. All annuity
annuities when computed at time of                calculations are subjected to a
retirement. Systematically spot-check             supervisory review. We selected a
the computation for annual increments             sample of 52 annuities and found that 6
and cost-of-living allowances to                  were initially incorrect. However, five
minimize computation errors.                      of the six errors were later detected and
                                                  corrected by Retirement System
                                                  officials. Retirement System officials
                                                  stated that the remaining error, which
                                                  resulted in overpayments totaling
                                                  $9,602, will be corrected. However, the
                                                  Retirement System does not spot-check
                                                  annual increments and cost-of-living
                                                  allowances for accuracy.

        New Recommendations

B. 1. Require that the independent                Partially implemented. Retirement
agencies submit payroll deduction                 System officials stated that agencies are
information on a biweekly basis and in a          required to submit deduction information
format specified by the Retirement                within 21 days of each pay period, which
System to meet its processing needs. If           is in accordance with the District Court’s
any of the independent agencies do not            consent judgment. In addition, the
voluntarily meet the Retirement                   officials stated that the format used by
System’s requirements, consideration              the agencies was suitable for use by the
should be given to refusing to process            Retirement System. However, the
loans for employees of that agency until          Retirement System did not receive salary
the requirements are met.                         information for the members to verify
                                                  the accuracy of deductions.

B.2. Institute procedures to ensure that          Not implemented. The Retirement
loan transactions, including those related        System did not institute procedures to
to loans to retirees, are processed in a          ensure that loan transactions are
timely manner.                                    processed in a timely manner. Based on
                                                  our review, we determined that it took an
                                                  average of 29 days between the date a
                                                  loan payment was received and the date


                                             21
                                                                           APPENDIX 2
                                                                             Page 6 of 6

           Recommendations                           Status of Corrective Actions

                                               the payment information was entered
                                               into the Retirement System’s computer
                                               files. Additionally, it took an average of
                                               13 days for automobile loans to be
                                               approved and an average of 8 months for
                                               mortgage loans to be closed.

B.3. Expedite the hiring of additional         Not implemented. Retirement System
staff needed to undertake a special            officials stated that rather than using
project to bring all loan records up to        temporary employees to bring loan
date.                                          records up to date, they were attempting
                                               to use existing staff to update the loan
                                               records as part of the conversion to the
                                               new computer system. However,
                                               because we found that the Retirement
                                               System’s loan records were not accurate
                                               and up to date at the time of our review,
                                               we believe that additional actions are
                                               needed to ensure that all loan records are
                                               updated prior to the new computerized
                                               loan administration system being fully
                                               implemented.




                                          22
                                                                                                        APPENDIX 3
                                                                                                        Page 1 of 13
                                                                                                          MEMBER, NASRA
                                                                                                          MU(BER, IFEHP


                                              EMPLOYEES’ RETIREMENT SYSTEM

 Mrs.   Corm     0, Kitlg
   (:hairpwon
                                 January 28. 1999


                                 Mr IIjay B. Bowron
                                 Inspector General
 MS. I,ecrna 6. Smnh
                                 United States Deparbnent of Interior
     Mcmba                       Office ul’the Inspector Gcncral
                                 Washingt.on. D.C 20240
 Mn I:rancisco   Stapleton
     Mcmha
                                 SUBJEC’I’:     Response to Audit Report on the Ciovemment Employees’
                                                Retirement System (Assignment No. V-IN-US-002-98)

                                 Dear Inspector General Eowron:

                                 The I’ollowin~ reprc~tnts the Government Employ=’ Retirement System’s Ruard 01
                                 Trustees responses to the above subject audit uf the ??ovemment Employees’
                                 Reurerncnt System. The responses art prefaced on the objcctivc recommendations
                                 and findings contained in the Dcccmber 8. 1998, audit report.

                                 We have addred with particularity the findings and the detailed recommendations
                                 of your ollice and established appropriate courses of corrective action fur
                                 implementation that are Year 2000 Compliant. At present, the GERS is in a transition
                                 state ofimplementing substantial organizational and system resources upgrade, which
    GOVERNMENT
                                 when c;ompletcd, will eliminate all the negative findings of inadequale controls over,
     EMPLOYEES’
                                 our loan programs, the accounting deficiencies for employer and employee
     IW-TREMENT
                                 contributions, and the inefEcicncies of the benefit programs of the System.
         SYSIEM
             0
                                 I;or the sake of brevity. WC are presently in the process of converting our Loan
   CERSCCMPLEX                   Department’s processing operations to a new computer system and converting otit
  VETEnnN'SDrn                   Benelits Department’s data processing to a new cornpurer pro8ranr which will
ST. TllOMAS, V.I. 00802
                                 eliminate the inellicienl operations of the past.
    (340) 7757703
 Fox: ($40) 7764499
                                 Our accounting and financial systems have been rcccntly replaced to ensure that a
             D
                                 proper system of accountability and control* witt)remaintained, which will meet the
#3Oob    OftnNGECXOVE            specifications and qualifications requirements of the Government Accounti~
          LOT 6                  Standards Board regulations in accordance with generally acceptable accounting
C’STED. -ST. CROIX V.I.          principles. The new technological computer system cnhanc;ements coupled with a
        00820-4s 13
    (340) 773-5480
 Fax: (340) 773-5497
                             I
                                                                 23
                                                                        APPENDIX 3
                                                                        Page 2 of 13
                                                                 Mr. Eljay B. Brown
                                                                    January 28. 1999
                                                                              Page 2


substantial training program l’or the staff, will ensure timely and accurate reporting
and will enable the institution of additional controls of our accountin and financial
sysbzms, making available total &inancial data for planning and policy making readily
available to management and the GERS Board

Sincerely.

 &&I&-
Corinc D. King. Chairperson
OF.RS Board of Trusties

pc:    Honorable Charles W. Turnbull
       Governor of the U.S. Virgin Islands




                                 24
                                                                                          APPENDIX 3
                                                                                          Page 3 of 13



                    EMPLOYEES RJWIREMENT SYSTEM
              OF THE GOVERNMENT OF THE VJRGIN ISLANDS
                  Nespoasc to Draft Audit Repoti No. V-IN-VIS00298
                                   Januan, 28.1999


Recommendation 1.3: Submit a bill to the J&slature which makes it udlrwful LO (11 increnre
benefits without mgkine cumutnsntions lo cover the orescnl and fuluti costs or such benefits
and (21 reduce contributions without eliminatinp beneliU which would no lonner be financed.

We propose the following draft legislation:

       Virgin islands Code, Title 3, Chapter 27, Section 701 is amended by adding a new
       Subsection (i) to read as follows:

       “(i) The Board shall provide the Legislature with an analysis of the aascts and liability
       implkations of each bill thal would affect the investment strategy of this System, the
       funding of this Swem, or the benefit structure of this System. ‘rhc analysis shall
       include an explanation of the met.hodoloby employed and the assumptions used in its
       preparation. Neither the Rules Committee, the Committee on Ciov~rnment
       Operations, nor the Committee of the Whole shall hear any such bill until the analysis
       required by this section has been provided to the Legislature. ‘l’here is, hereby,
       continuously appropriated, without regard to fiscal years, from the Legislature’s
       hudgx an amount sufkent to pay all costs ari% from prcpaion of such analysis
       reports, not lo exceed ONE HUNDRED TliOUSAND DOLLARS (SlOO,OOO) in any
       one liscal year.”

       “(1) N&itbstanding, any other provision of this Chapter, it shall be unlawfkl for the
       Virgin Islands T,egislaturc to pass any act or law which increases benefits without
       making compensations to cover the present and fiture cost of such benefits and
       reduce contributions without ditninating heneflts which would nu longer bc finance.”



Recommendation 1.5: Consider the ntnblishment of a temoorlrrv moratorium on the issuance
of new oenonal lon~u until (11 r comolete evaluation is made of the staWr of existine Dcrsonal
loans, (2) loan rc%ords are bruuvht uu to date. (3) collection actions are beeuo for delinauent
loans, and (41 lomn administratiou Druccdurts are imo~tmtnled to ensurt DrODer manaEeIUent
of the oersond loan woeram.

We are working on correcting and bringing the loan rrx;ords up to date prior lo converting to the new
loan system, This should be completed by the end of September, 1999. There are procedures in
place for collection of delinquent loans. However, these ptoccdures will be reviewed and improved
before formally presented as the ofIicial policy.




                                                  25
                                                                                           APPENDIX 3
                                                                                            Page 4 of 13
                                              CSRS’ Rcspon~ to ~<3.‘r tkuft Audit Report (V-lN-VIS-O&2~3s)
                                                                                           Jnaury 2% 1999
                                                                                                 PILV 2



The following procedures arc recommended to be followed for delinquent loans until such time that
an otlkial regulation is promulgated:

.      Arty account that is 30, days past due shall be identified as a delinquent accuunt.

b      Collectors shall first attempt to contact the delinquent member by t&phone and inform him
       that his account is past due and that an immediate payment is required lo bring the accounl
       current within five (5) days.
.      If no payment is received atter telephone notice is given, a written demand for payment shall
       he fonvarded to the member demanding immediate payment within 48 hours aflcr receipt of
       demand.

.      lf no payment is received following the written notice, the c&clot shall make a second
       written demand for payment within 96 hours.

.      After the third notice is given and the member fails to pay the delinquent amount, the
       colleclor shall forward the account with notice to the Loan Supervisor for debit action on the
       member’s contributions.

.      The coilector shall, *&er lhe account has been debited, forward a copy of the debit
        metnorandum to the member advising that his/her contribution account has been debited.

.       Tn the event that a retiree or member’s account becomes deficient or delinquent during the
        loan repayment period, the account shall be referred to small claims court for collection, to
        a collection agency, or to civil court for a civil suit to collect the deficient amount,

b       At all times the collector shall keep a record of all activities undertaken with a collection
        account.

.       On a regular monthly basis, the payment history of deliucnt members shall be forwarded
        to the Credit Uurcau for recording on the credit record of the member.


Kccommcndalion 21: lmmediatelv initiate collection efforts on all automobile and martFree
loans currently delinauwt over 6 months. Specifically, (1) determine whether a delinquent
borrower is receivinr retirement annuities and, irr such instances, inititite calleclion efforts
lhrough scmimonthty annuitv deductions and notify the borrower of the action and (21 for all
other borrowers. issue a new letter infvrmine each borrower thrt reuvs.session or foreclosure
actions will be taken if settlement ir not immediatelv made. lcor nonreapnnaivc harrowers,
forward the arrount to the Svstem’s attorney and follow UD on each accouut to ensure thnt
tirndv lenal actions were taken bv the attorney.




                                                 26
                                                                                          APPENDIX 3
                                                                                          Page 5 of 13
                                                CERS Rcsponsc to l.C.‘r Draft Audit Report (V-lN-Vlsoa29H)
                                                                                            January 28.1333
                                                                                                     me3



Collection eftorts have begun with the mortgage and auto loan accounts since these accounts are
being cleaned and updated t-br conversion to the new software. lnilial letters are currently being sent
to delinquent borrawers. Some accounts have already been &erred to the Legal Section for
colleclion. In the past, the Benefits Section did the research to dcttrmine if retirees had loans before
being placed un the payroll. Because of the serious problems with the System 36, and not being
involved with the loan ope~~~tio~ on a day to day basis, outstanding loans wcrc not tiund at the time
of their rewch or erront~us loan balances were picked up. The laoan Section is now completely
responsible for research and submitting loan information on retirees to the Benefits Section upon
request to avoid the problems that existed in the past.


Rccommeudation 2.2: In cunjuaction with Recommendation 1.5. reduce the risk associate&
with mnonal loans bv f 1) basine each rDprovr1 on the rDDlicant’s Drier credit historv,
continuitv of emDlovment. intent, and ability to met1 financial oblieations and (2) rcauiring
avulid
aDDroved puruosc If funds are not used for their stated DU~POSC, disapprove ail future loans
to the member.

Personal loans are approved based on 2 years of contributed service. We do no1 agree that a credit
history is necessary for this type of loan since the loans are fully r;ollatera.lizcd by Ihe contributions.


Recommendation 2.3: Minimize delinquent accounts bv imDtementinp unxedures to
immcdintelv initiate collection efforts whm automobile and rnorteaee loans become dclinuuent.
When borrowers are nonregDonsive to inuuiries, ensure that accounts are forwarded to the
Svstem’s attorney and rcuossession and foreclosure efforts are timelv nerformed.

Thcrc arc procedures in place for handling delinquent accounts. The establishment of a collection
section, solely responsible for the collection of ail loans will be considered, however, after the
conversion is completed.

Proposed procedure for referrel of delinquent accounts to Staff Attomcy:

c       All accounts that cxcced 55,000 and which are 120 days past due and after which three (3)
        notices have been provided to the member and where there are no untributions available to
        be debited shall be forwarded to the System ALCorncy for collection through the courts.

l       Accounts which are less than $5,000 total (principal and intcrcst) the collection department
        shall attempt to collect the delinquent. accounts through small claims court or by forwarding
        such accounts to a collection agency




                                                   27
                                                                                        APPENDIX 3
                                                                                        Page 6 of 13
                                              GEM' Ropunrc tu LG:r Draft   Audit Rcpwt (V-IN-Vlsuotue)
                                                                                         Januay 28, 1WY
                                                                                                 Page 4



Proposed procedure fbr repossession ofautomobilcs.

.      Whenever any auto loan remains delinquent for a period of ninety (90) days and the
       delinquent account procedures have been exhausted and the mcmbcr fails to make payment,
       the Loan Department shall forward such accounts for rqwssessim LO a licensed agent or
       apwy

.      Kcposscssad vehicles shall be stored in a secured enclosure by the repossession agent. ‘I’hc
       delinquent membw shall be given fifteen (15) days to redeem the vebiclc by making paymenl
       in full of the outstanding delinquent amount.

c      The repossession agent shall give five (5) days notice to debtor in accordance with 1 IA
       V.I.C. $9-503 & m The collector shall cause a copy of said notice to the delinquent
       member’s file.

.      All repossessed vehicles shall be advertised and sold in accordance with I 1 A V.i.C. $9-504.

.      The System shall not release any vehicles or re-instate any delinquent loan after a repossession
       has taken place.

Proposed boreclosure of Real Estate Property:
.      For dctinquent mortgage accounts, foreclosure action shall be comxnenced in accordance with
       Title 28, V,l.C., $53 l-538 within ninety (90) days after a mortgage loan remains unpaid.


t&commendation 2.4: Monitor the accumulation of interest and ocnrlties on Dersonal loans,
rnd immedirtelv initiate collection efforts when rccumulated amounts exceed a member’s
contribution.

With collection being don: 00 the personal loans, the high accumulation of interest on personal loans
will be eliminated. Recausc there was no serious effort on personal loans before 1995, there are old
loans (6%) th& have accumulated intwe& exceeding contributions.


Recommtndntion 2.7: EsMlish an wcraw account for mch mortpape holder so that funds are
irccumulated loward the DaYment of inaorunce onmiums and uroucrtv trxcs.

‘The System is currently looking at establishing forced pIa& insurance. We believe that if this is
done, many borrowers whose loans are @or tn 1990 would opt for escrow payments. If not, forced
placed insurance will protect the System’s intcrcst.




                                                 28
                                                                                         APPENDIX 3
                                                                                         Page 7 of 13
                                               GERS’ Rerpunsc to LG.‘r Draft Audit Report (V-JN-VJsoCn-9#)
                                                                                           January 28, WY
                                                                                                    Pugs s



Recommendation 2.1: Satisfv the lezal reguirement for insurance l eninst a morteane holder’s
death or disabililv bv (1) amendinp lhe current life insurlrnce oolicv lo indude iusurance
aaniost the total disnbilitv of a morterec holder, (2) ensuring insurance r)rcmiumr for the
J.l..l
morwwe holders bv addiap a charee to biwccklv Davroll deductions.

There ace no specific provisions in Title 3, V.I.C., Chapter 27 which provides for mandatory life
insurance on mortgage loans. 3 V.I.C. $717(b)ll. (b)ll(h) ‘The statute at 3 V.I.C. $717(b)(lO)
provides (discretion for the Board to elect such as an option) that life insurance is authorimd and that
the System can pass on the charge. There is no mandatory rcquiremcnt for GERS to impose or
require credit life coverage on auto loans

At this point in time. GEKS is in the process of acquiring mortguge life insurance with a rider which
would include disability and employment protection for ninety (90) days. The go-day period on the
employment protection is standard within the banking industry Under the 9Oday employment, the
policy will make payments to the System if a member loses his job. Gcncrally, these payments are
for the limited period of 90 days. howcvcr, we Me seeking to enlarge that period to 180 days.

The cost of the loan credit life will be passed on pursuant to the provision cited in 3 V.I.C.
$717@)(10), (b)ll, (b)(l I)(h), however, E statutory amendment is rcq~ircd to enable GEKS to pass
on the cost for auto loans:

The following amendment is proposed to cnablc GERS to pass thcsc costs:

        Virgin Islands Code, Title 3, Chapter 27, Section 717 (b)( 11) is amended by adding
        a new sentence following the sentence containing the word “dollars” to read:

        “In addition to interest, the Board shall charge for credit life insurance on each loan
        against the eventuality of death, or the total and pcrmancnt disability, and the loss of
        employment of the member, which eventually shall result in a cancellation of any
        unpaid principal of the loan and any accrued interest thereon as a condition to
        granting the loan.”


gt.9:
resultine from mortnwe loans.

We do not concur with this finding. We have attached a copy of&c GERS corrcspondcncc to the
former Commissioner of Finance dated August 6, 1997, wherein inquiry was made rcquetiing
verification of funding and requesting fimding pursuant to Title 33, Section 3026. Title 33. Section
3026 was enacted in 1966 and the sum ofSS0.000 was appropriated for the purpose of this section;
however, since the passage of the legislation. no ftnds have been allocated for the Mortgage Loan
Fund.




                                                  29
                                                                                        APPENDIX 3
                                                                                        Page 8 of 13
                                              GLHS‘ Kc~pmc to LG.3 Draft Audit Rcpwt (V-lN-VLW02.98)
                                                                                       Jnnusty 28, 1YYY
                                                                                                P8ge 6


ERRS lacks any authority or jurisdiction to compel the Office of Management and Budget or the
Commissioner    of Finance to source the fUnd in accordance with the statutory mandate. Although
advised about the unfunded situalion, the Legislature failed to take appropriate action to ensure thar
the Administration complied with the spirit and letter of the law.


Recommendrtioo 2.11: Submit a bill te the Lerialature which aporooriates sufficient funds to
finance and establish the Mortpr~e Loan Fund as outlined in Title 33 of the Virzin Islands
Code. Renlenish the fund throueh annual aDDror&tions.

We do not concur with this finding It is our position lhat this recommendation be withdrawn
bw it fh.lls beyond any reasonable scope of authority wherein GERS can be expected 10 exe&c
corrective action.

The GERS has implemented this recommendation to the extent of its administrative ability.
Appropriate legislation was submitted to the V.l. Legislature and subscqucntly became law. The
Legjslature enacted Title 33, Se&on 3026 of the Virgin Islands Code. Since 1966, the Legislature
appropriated $50,000 for the purpose of fbnding the Mortgage Loan Fund, however, since that time,
the Fund has remained inactive because no funds were allocated. There is nothing within the
satutoty scope of the GERS that can compel the fbndiny. ‘I’he continual findings by the Inspector
General relative to this recommendation are irtqpmpriale and unf’, and should be discontinued
given the f&t that CiJX!S has Lakcn appropriate action to implement the recommendation. Thcrc is
nothing furlhcr that GERS can do to compel the V.I. Legislature or the Administration to fund the
Mortgage Loan Fund.


Recommendz+tion 4.3: For each auar&,&&tement received from the custodian, reconcile
trade transactions to broker coafirmnlio~~ recebts. lnvestieate and correct all vwriances prior
s
transactions for trades not authorized bv the Virnin Islands Code. Notifv aDnroDriatc
investment nwnaeers of all unauthorized trades, nnd initiate administrative actions if
una.uthorixed trades continue.

We do not concur with this finding. Corrective action on this recommendation was implemented as
Tar back as July 1, 1994, when the GERS contracted with the Chase Manhattan Bank to perfixm
Gimbal Custodid Services. That coutracl bound Chase Mauhatlau Bank as custodian, to perform a
number of custodial services which required Chase to reconcile transactions, examine kansactions
for unauthorki trades, notif) the inwstment managers of all unauthorized trades, and initiate
appropriate actions to cancel unauttwkxl trades as soon as they are discovered. Such were the
responsibilities orthe Custodian and those responsibilitks wcrc to bc perforrncd monthly, prior to the
Custodian reports being submitted to the GERS.




                                                 30
                                                                                        APPENDIX 3
                                                                                        Page 9 of 1 3
                                               CERS’ Rcspmc tn LC:r Drart Audit Rcporl (V-IN-VW-78)
                                                                                        Jmurry 28, NW
                                                                                                Pn~O 7



Findings that the GERS did not have formal procedure3 for reconciling trade transactions to broker
confirmation receipts is an inaccurate conclusion. The Custodian wa3 hired specifically to perform
those reconciliations for the GUS. The Custodian’s monthly reports were closely reviewed ,to
ensure that no unauthorized trades were approved in contravention of the Custodian contract
provisions.

Each Investment Manager Contract incorporates specific language whir;h stipulates the types of
invcstmcnt authorizcd by the provision ofTitlc 3 V.I.C. $717. All trade transactions arc inspcctcd
and scrutinized by the Custodian on a monthly basis. Any discovery of authorized trades are
corrcctcd within the monthly rcpoting period which is audital by the Custodian. The Custodian’s
audit verified each trade transaction relative tn the V.1 Code requirements. The Custodian
maintained appropriate software programs for evaluating trade transactions as part of their monthly
audit process.

There arc scvcral other levels of audits performed by rcqucxt of the GERS to ensure that
unauthorized trade transactions do not go undetected. Besides the monthly Custodian Audit, the
GU ha3 commissioned a specific lnvcstmcnt Fond Audit annually that is performed by the GERS’
Independent Auditor to ensure that the System’s investments are made in conformity with the
provisions of Title 3 V.I.C. $717.

There have brm no recent findings rtqurted which would indicate that unauthoriied trades were
b&g conducted by the Invcstmcnt Managers, or that such were going undetected by the Global
Custodian. Chase Manhattan Dank. or the GERS. There is no logical rationale, given the levels uf
additional controls established by GEKS, which would imply that there is a compelling need for
GllRS to become fix-thcr involved in performing additional monthly audits of trade trslnsactions
beyond those audit c;ont.rols which are made a part of the contractual duties of the Custodian.

At the present, GERS is in the transition process of changing its Global Custodian from Chase
h4anhatta.n Bank to State Stre& Bank and Truyt Company, an institution whose primary services are
custodial trust savices for private and public trust institutions. S Late Streel was selected because in
addition to all the other global custodial fiqtions they were cormacted to perfun they are globally
rccognizcd for maintaining an cxccllent system for monitoring trade transactions, and for the
submission of timely monthly reports to their clients. State Street has the ability to deliver a vast
range of reports within 24 hours of month-end closings, and they have the technical ability to have
audited reports available which can bc accasscd on&c, within three days of the monthly closing.

With these high levels of technological repo&g and accountability controls. the entire system of
controls of the GERS will be completely revolutionized to insure against future unauthoriwd trade
transactions in the GERS investment portfolio.


Rccommeodatioo 5.3: Perform a 100 percent review of all Imnuilies when comouted at time
c
IivinP nllowanccs to miirimize comcWation erron




                                                 31
                                                                                       APPENDIX 3
                                                                                       Page 10 of 13
                                              GLRS’ Rapnnse to l.c.‘* Drab Audit lkport (V-INVlS-O02-!J1)
                                                                                          Jmuny 28.1939
                                                                                                   Page R



We will begin doing spot checks on annual increments and COLA for accuracy


Recommendation B,l: Reauire that the indenendent agencies submit Davroll deduction
information on a biweeklv basis and in a format suecified bv the Retirement System to meet
its urocessjrln needs. If aw of t h e irrdefieudeut wcncin J o not voiuntnrilv meet the
Retirement System’s ruauircmcnts, consideration should be given to refusine 10 LWOCUS loans
for cmulovces of that npencv until the rcquircmcnts arc met.

We propose the followi ny statutory amendment:

       Virgin islands Code, Title 3, Chapter 27 is amended by adding a new S&ion 7.34 to
       read as fi~llows:

       “(a)    Notwithstanding any other provision of law, neither the Government nor any
               agency, department, instrumentality, or employer shall fail or refuse to pay the
               employer’s contributions when due to the Employees’ Retirement System of
               the Government of the Virgin Islands, and said agency, department.
               instrumentality, or employer shall submit. payroll dedutiion information on a
               biieckly basis and in a format specified by the Retirement System LO meet its
               processin needs.”

       “(b)    Whenever any agency, departmcnt, instrumentality, or employer shall fail to
               make timely contributions or submit payroll deduction information, intcrcst
               shall accrue on the amount of the contributions not paid based on the
               System’s average fixed income investment rate of return for the period that
               the payment is deliiquent, and the System shall refuse to process loans to the
               employees of the delinquent agency, department, instnrmmtahty, or employer
               as an additional penalty until the above requirements are met.”


Hecommendation R.2: Institute urocedures to ensure that loan trnnsactiooa, including those
related to loans to retirees are urocesscd in a timclv manner.

Except for those loans which are in the process of being converted, we aim to process payments as
soon aa we receive them from the paying Gencies. Occasio~rally, there are delays in submission frum
the respective agencies or thcrc arc technical errors beyond our control. We are working on new
procedures which will be implemented when the conversion project is completed.

We try to approve all loans expeditiowly-- auto loans weekly and mortgages monthly. However,
form time to time the applications are received incomplete and we are not always successfL1 in gctti~~
additional information in a timely manner.




                                                 32
                                                                                        APPENDIX 3
                                                                                        Page 11 of 13
                                              GLRS’ Response tn J.G.‘b Draft Audit Rqxwt (V-lN-VlS-OO2.98,
                                                                                           Jmuary 28.1999
                                                                                                   Page 9


We are now working with the Legal Section to close mortgages within a reasonable time.


R~ommcn&&m 8.3: Exmdite the hiriw of additional slaff lo ulldertakc a saecial Droiect to
brim alJ loga rwords UD to drtc.

Additional resources are indeed necessary to update loans as well as assist in other arcas of the loan
conversion. Staff from the St. Croix Office, Benefits, Accounting, and Operations Sections are now
assisting with the research of loans prior to conversion.




                                                 33
                                                                                    APPENDIX 3
                                                                                    Page 12 of 13

                                                                                         UCUOCR,   NASNA
                   i                                                                     MEMBER. IrEUP
ROY L. SCHNEIDER
     Govornor
                   I
  1                            mipt~~~&s                   RETIREMENT SYSTEM
                                                  -    -




                       Honorable Juan Centeno
                       Acting Commissioner
                       Department of Finance
                       tic176 Kronprindsens Gade
                       St. ‘Thomas, Virgin Jslands 00802

                       Dear Commissioner Centeno:

                       This is to request your assistance in dctcrmining the current status of the
                       Morl~d~:e Loan I%.nd.


                       Title 3, Section 717 (1 I) (i) and Title 33, Section 3026 of the Virgin
                       Islands Code authorizes the GERS Board of Trustees to have transferred
                       from the Treasury of the Virgin islands such amounts as are necessary
                       to restore to the System any losses suffered as a result of defaults on any
                       loans or of any other cause incidental to the administration or operation
                       of the loan program. Pursuant to Title 33, Section 3026, the
                       Commissioner of Finance shall maintain and provide for the
                       administration of said fund.

                       According to the annotations, when Section 3026 was enacted in i966
                       $50,000 was appropriated for the purpose of this section. I would like
                       to know whether GERS received these funds and also if you are aware
                       of the Board authorizing the transfer of additional funds for these
                       purposes?

                       Further, what procedures or policies are to bc follou;red in or&r to have
                       funds transferred to cover losses under the above-mentioned sections.




                                                  34
                                                              APPENDIX 3
                                                              Page 13 of 13




Commissioner Juan Centeno
Page -2-
August 6, 1997


We are anxious to have this fhd in place, since we are currently
upgrading our loan portfolio and will be completingthis task no later
than December of this year.

Your assistance in this matter will be greatly appreciated,

S imerely,




Acting Adminislrator

 W@I’/CPSIMass

 cc: Board ofTrustees
    Laurence E. Bryan, Jr., Administrator
    Cecilia P. S. Hanigan, Asst. Administrator




                           35
                                                                            APPENDIX 4



       STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
       Reference            Status                        Action Rewired

          A.1            Management         Provide target dates and the titles of the
                         concurs;           officials responsible for implementation
                         additional         of the corrective actions on the
                         information        outstanding prior audit recommendations,
                         needed.            as described in the Retirement System’s
                                            January 28, 1999, response to the draft
                                            report.

  A.2, A-3, A.4, AS,     Unresolved.        Reconsider the recommendations, and
       and A.6                              provide action plans that include target
                                            dates and titles of officials responsible for
                                            implementation,


   B.l, B.2, B.3, B.4,   Unresolved.        Reconsider the recommendations, and
         and B.5                            provide action plans that include target
                                            dates and titles of officials responsible for
                                            implementation.




                                       36
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov



                      Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-5081 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U. S . Department of the Interior                       (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                       (67 1) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
:     Toll Free Numbers:
  :    l-800-424-508 1           -
  :    TDD l-800-354-0996
 :I
                                 1
:m
      FT’S/Commercial Numbers:   t
3      (262) 208-5300
:.     TDD (202) 208-2420



      1849 C Street, N.W.
:     Mail Stop 5341
3
:
:
:
:
:
:
:
:
:
m

-m
